OVERSIGHT OF DESIGN AND ENGINEERING
   FIRMS’ INDIRECT COSTS CLAIMED
       ON FEDERAL-AID GRANTS

    FEDERAL HIGHWAY ADMINISTRATION

        Report Number: ZA-2009-033
        Date Issued: February 5, 2009
           U.S. Department of
                                                                     Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on Oversight of Design and                                      Date:    February 5, 2009
           Engineering Firms’ Indirect Costs Claimed on
           Federal-aid Grants
           Federal Highway Administration
           Report Number ZA-2009-033

  From:    Mark H. Zabarsky                                                            Reply to
                                                                                       Attn. of:   JA-60
           Assistant Inspector General for
            Acquisition and Procurement Audits

    To:    Acting Federal Highway Administrator

           This report provides the results of our audit of the implementation of Section 307
           of the National Highway Systems Designation Act (NHSDA). These provisions
           are intended, in part, to ensure that design and engineering (D&E) firms’ indirect
           cost rates do not contain unallowable costs. 1 We began this audit because of
           concerns expressed by state transportation officials regarding the allowability of
           executive compensation and other indirect costs at some D&E firms. Our audit
           objectives were to evaluate the implementation of NHSDA Section 307 audit
           requirements, and test the allowability of executive compensation and other high
           risk indirect cost elements billed by D&E firms on state departments of
           transportation (DOT) contracts. The Federal Highway Administration (FHWA) is
           responsible for providing direction for, and overseeing the implementation of, the
           audit provisions in Section 307.

           During the 7-year period ending 2004, under the Transportation Equity Act for the
           21st Century, FHWA awarded an average of $30.6 billion, annually, in Federal-
           aid highway grants (Federal-aid) to state DOTs. Of that amount, state DOTs paid
           about $4 billion to more than 3,500 D&E firms for the design of highways,
           bridges, and related infrastructure; and construction inspection and management.
           About $1.4 billion, 35 percent, was paid for indirect costs, the balance for direct-
           charge engineering work.

           1
               Unallowable costs are those that under the provisions of any pertinent law, regulation, or contract cannot be included
               in price, cost reimbursement, or settlement under a Government contract.
                                                                                                                    2


In conjunction with the Defense Contract Audit Agency (DCAA), we examined 41
D&E firms for executive compensation out of the statistically sampled universe of
3,580 firms. We also examined other indirect costs at 9 of the 41 firms. Exhibit A
details our audit scope and methodology. We performed this audit in accordance
with generally accepted government auditing standards as prescribed by the
Comptroller General of the United States.


BACKGROUND
The provisions of Section 307 of NHSDA, passed by Congress in 1995: (1)
require the use of the Federal Acquisition Regulation (FAR) as criteria to
determine cost allowability when performing indirect cost rate audits of D&E
firms; (2) eliminate duplicate audits of D&E firms by multiple audit entities; and
(3) remove ceilings established by certain states for indirect rates, salaries, and
bonuses. Regulatory requirements for implementing Section 307 are found in 23
Code of Federal Regulation (CFR) 172.

Indirect rates are comprised of costs such as executive compensation; employee
fringe benefits and wages; facilities charges; and insurance, legal, consultant, and
travel costs. State DOTs use indirect cost rates, in part, for reimbursing D&E
firms for allowable costs incurred. Also, these rates are used when establishing
final contract costs, and they provide the historical cost basis for estimating and
negotiating new contracts.

Audits of D&E firms’ indirect cost rates are critical to detect fraud and protect
taxpayer funds as the firms’ Federal-aid contracts are exempt from price
competition. D&E firms must be selected on qualifications alone; price and other
contract terms are negotiated only with the most highly qualified firm. 2 Similar
audits on indirect cost rates of Federal contracts save, on average, more than four
times their cost.

FHWA is responsible for establishing an oversight program to monitor the
effective use of Federal-aid funds and, since the passage of the Intermodal Surface
Transportation Equity Act in 1991, has increasingly delegated this responsibility
to state DOTs. FHWA, regardless of the project responsibilities delegated to the
states (or other Federal agencies), is ultimately responsible for all Federal highway
programs and provides assurances that Federal-aid funds are expended in a
manner consistent with applicable Federal laws and regulations.



2
    The Brooks Act, 40 United States Code 1101 through 1104, requires that contracts for architectural and engineering
    services be negotiated on the basis of demonstrated competence and qualification at fair and reasonable prices.
                                                                                                                    3


RESULTS IN BRIEF
We found that indirect cost rate claims from 21,3 of our sample of 41, D&E firms
included unallowable costs—some expressly unallowable4 —totaling about $15.7
million. Of that amount, state DOT contracts were charged about $5.5 million, of
which about $4.4 million—the Federal share—was reimbursed with Federal-aid
funds. 5 Examples of unallowable costs we found were:

      • $301,667 for 45 automobile leases—5 of which were luxury class including
        Mercedes, BMW, and Lexus—with no documented business purpose.

      • $280,609 in executive compensation in excess of the Federal statutory cap.6

      • $247,685 for items such as social dinners with clients; dining club
        memberships; outings to professional and college sporting events; theme
        and holiday parties; and trips to Atlantic City, a city zoo, and a county expo
        fair.

Lack of accountability at D&E firms and insufficient transaction testing by
Certified Public Accountant (CPA) firms were the immediate causes of
unallowable costs we found. Further, FHWA and state DOT oversight did not
ensure effective monitoring of D&E firms’ indirect cost rate claims or indirect cost
rate audits performed by CPA firms. FHWA relies on state DOTs to implement
Section 307 but has not collected sufficient information to properly evaluate the
states’ implementation efforts. For example, FHWA did not know how well states
performed oversight or whether indirect cost rate audits met the intent of Section
307 requirements. FHWA must improve its monitoring of state DOTs to identify
and resolve implementation problems.


D&E Firms Included Significant Unallowable Costs in Indirect Cost
Rate Claims
D&E firms are required to support that claimed costs for reimbursement on state
DOT contracts comply with FAR cost principles, and remove unallowable costs

3
    The 21 firms include 20 that had “unallowable executive compensation” costs, of which 7 also had “other
    unallowable costs.” One of the 21 firms just had “other unallowable costs.”
4
    An expressly unallowable cost is one that is specified by statute or regulation as being unallowable.
5
    The $5.5 million represents the portion of D&E firms’ unallowable costs allocated to all state DOT contracts, both
    federally and non-federally funded. Most Federal-aid projects are reimbursed 80 percent with states or other
    allowable sources being responsible for the balance. Federal participation on projects such as Federal Lands and
    Emergency Relief can go as high as 100 percent. To conservatively estimate the Federal share of the unallowable
    costs, we used 80 percent of the $5.5 million, which is approximately $4.4 million.
6
    Section 808 of Public Law 105–85, Fiscal Year (FY) 1998 Defense Authorization Act, directed that the Office of
    Federal Procurement Policy set an annual cap for executive compensation costs that will be allowable under Federal
    contracts. For D&E firms’ FY 2003, the cap was set at $405,273.
                                                                                4


from their indirect cost rate claims. We found that D&E firms did not remove
significant unallowable costs and claimed reimbursement for such costs in the
millions of dollars.

Contractors, such as D&E firms, receiving state contracts paid with Federal-aid
funds are not required to certify that no known unallowable costs were charged to
the Government; therefore, they have less incentive to remove these costs. In
contrast, contractors awarded contracts by the Federal Government are required to
provide such certification and can be assessed penalties if unallowable costs are
knowingly claimed. We found that one firm was required to prepare both Federal
and state DOT claims using the same cost principles in FAR, Part 31.
Accordingly, the indirect costs claimed as “allowable” should have been identical.
When the firm had to certify that the claim contained no known unallowable costs
for the Federal Government, however, it identified and removed $1.6 million in
unallowable costs that should have been excluded from its state claim, but were
not. Requiring certification from D&E firms receiving Federal-aid funds, and
assessing penalties on those who knowingly claim unallowable costs, would
encourage compliance with regulations and deter D&E firms from claiming
unallowable costs.

CPA Firms Did Not Perform Sufficient Transaction Testing
We found that CPA firms’ indirect cost rate audits were not sufficient in
transaction testing when determining the allowability of costs included in D&E
firms’ indirect cost rate submissions. As a result, the CPA firms missed
significant unallowable costs that should have been detected. For example, our
review at one D&E firm found more than $950,000 of unallowable costs including
a political contribution, alcohol, and spa resort charges. These costs were not
questioned by the CPA firm because it limited its review only to costs the D&E
firm identified and removed from the indirect cost rate claim as unallowable.

State auditors from nine states also raised concerns—via unsolicited comments
during our audit—about the quality of work performed by CPA firms. To
illustrate, an audit supervisor at one state audit office commented, “We believe
that getting reliable audits from private CPA firms on a consistent basis is an
unrealistic expectation.” The state auditor further added, “Because the consulting
firm is engaging the CPA and paying the bill, most CPA firms will exploit the lack
of well defined expectations to the benefit of the consulting firm rather than the
government.” Our work, coupled with comments by state auditors, raises
questions about the reliability of CPA firms’ audit work. We concluded the
following contributed to problems identified in CPA firms’ audit work:

   • D&E firms did not hire CPA firms qualified to perform indirect cost rate
     audits. Instead, they hired firms with whom they had existing
                                                                                 5


      relationships—those that performed financial statement audits or prepared
      corporate tax returns.

   • CPA firms did not have relevant training, related to cost principles in FAR,
     for effectively performing FAR indirect cost rate audits. For example, six
     of the nine CPA firms we reviewed did not have training related to FAR
     Part 31 cost principles. Professional auditing standards require audit
     organizations to ensure staff members collectively possess the necessary
     technical knowledge, skills, and experience before beginning work on an
     assignment.

   • FHWA did not clearly define and communicate the specific roles,
     responsibilities, and requirements for state DOTs regarding the oversight
     and acceptance of the work of CPA firms hired by D&E firms.

We provided FHWA a draft of this report on October 29, 2008, and on January 14,
2009 we received FHWA’s response. We recommend that FHWA: (1) require
D&E firms to certify their claims and authorize state DOTs to assess penalties
when D&E firms claim known unallowable costs; (2) assign responsibility to
specific states for overseeing CPA audit work; (3) issue guidance on how to
effectively procure audit services; and (4) establish an oversight program and
process for monitoring state DOTs’ implementation of Section 307 of NHSDA. If
fully implemented, these recommendations could put approximately $30.2 million
in future Federal-aid funds to better use and reduce the risk of paying unallowable
costs on state DOT D&E firm contracts.

FHWA generally concurred with our recommendations, stating that it is
committed to improving the overall stewardship and oversight of the procurement,
management, and administration of engineering consultant service contracts.
FHWA stated that they are currently working closely with state DOTs’ and
industry’s representatives to make the necessary program management changes to
eliminate unallowable costs. A complete list of recommendations can be found
starting on page 12 of this report. FHWA’s response can be found in its entirety in
the appendix.


FINDINGS

D&E Firms Included Significant Unallowable Costs in Indirect Cost
Rate Claims
FAR cost principles require contractors to identify unallowable costs in their
accounting records and exclude them from their annual indirect cost rate claims.
                                                                                   6


We found D&E firms typically did not remove significant costs as unallowable in
their claims—in some cases, costs expressly forbidden by Federal statute and
regulations, such as entertainment, donations, and alcohol. Indirect cost rate
submissions are used, in part, to establish final rates for reimbursement under cost-
type contracts. Inflated indirect cost rates could result in harm to the Government
due to over billing on Government contracts.

To assess the risk that D&E firms may be over billing on state DOT contracts, we
reviewed the allowability of executive compensation and other indirect costs
claimed by D&E firms. We identified unallowable costs claimed by 21 of 41
D&E firms of about $15.7 million (the Federal share charged to state DOT
contracts is $4.4 million). Of the $15.7 million, about $10.7 million (table 1) were
unallowable executive compensation and about $5 million (table 2) were other
unallowable costs.

Unallowable Executive Compensation Claimed in Indirect Cost Rates. Our
analysis of a statistical sample of 41 D&E firms identified 20 firms billing
Federal-aid contracts for unallowable executive compensation of approximately
$10.7 million. The Federal share of the $10.7 million charged to state DOT
contracts is $2.8 million. See table 1 for details. Four firms billed Federal-aid
contracts so excessively that a portion of the amounts even exceeded the Federal
statutory cap by $280,609 (see footnote 6 for further details on the statutory cap).
We also identified two firms that included unallowable items in their executive
compensation charges with a total value of about $1 million. These charges were
associated with bonuses tied to the market value of company stocks, out-of-period
deferred compensation, forgiving a loan to an officer, and one firm claiming costs
attributable to another division—all explicitly prohibited by FAR.
                                                                                                                    7


                 Table 1. Unallowable Executive Compensation

                                                 Number of               Total                  State DOT
 Types of Unallowable Costs                       Firms                Unallowable             Portion (Note 1)
Unreasonable                                        20                  $9,421,299                 $3,282,096
Exceeds Federal Cap                                 4                      280,609                     69,626
Other                                               2                      961,594                    172,626
Total                                                (Note 2)          $10,663,502                 $3,524,348
Federal Share Charged to State DOT Contracts (Note 3)                                                $2,819,478
Note 1: The $3,524,348 represents the portion of D&E firms’ indirect costs allocated to state DOT
contracts. The remaining $7,139,154 ($10,663,502 − $3,524,348) represents the portion allocated to D&E
firms’ business, other than state DOTs.

Note 2: We did not total the number of firms because some had multiple types of unallowable costs.
Specifically, the four firms that had executive compensation exceeding the cap also had unreasonable
costs. The two firms that had other unallowable costs also had unreasonable costs. One firm had all three
types of unallowable costs.

Note 3: The $2,819,478 represents 80 percent of the $3,524,348 state DOT portion of the unallowable
costs. See footnote 5, page 3, for further explanation of the 80 percent.



Based on the sample test results, we projected that, overall, D&E firms
overcharged state DOT contracts for unallowable compensation of $41.2 million 7
(the Federal share charged to state DOT contracts is $32.9 million). 8 We used the
projected sample mid-point to estimate the impact of excessive executive
compensation for this report. Upper and lower confidence limits were calculated
at a 95 percent confidence level—meaning that chances are 9.5 out of 10 that
actual excessive executive compensation would fall within the lower ($9.4
million) and upper ($73 million) confidence limits if all 3,580 D&E firms were
reviewed. The range between the upper and lower confidence limits is large
because D&E firms’ excessive executive compensation amounts varied greatly—
from $0 to almost $1 million, with about half having no excessive executive
compensation.




7
    $41,170,410 is the midpoint of the projection of the audit findings for the 3,580 D&E firms that received payments
    from state DOTs. The projection based on a 95 percent confidence level resulted in a margin of error of
    $31,783,261, which can also be expressed as ± 77.2 percent. See Exhibit A, page 16, for the calculation of the
    unallowable executive compensation used as the base amount for the projection to the universe.
8
    The Federal share of $32.9 million was computed by multiplying the total projection of $41,170,410 by the Federal
    share, 80 percent, explained in footnote 5. ($41,170,410 by .8 = $32,936,328.)
                                                                                                                   8


By implementing the recommendations in this report, FHWA could put
approximately $30.2 million 9 in future Federal-aid funds to better use.

Other Unallowable Costs Claimed in Indirect Cost Rates. We judgmentally
selected nine of the larger D&E firms in our sample, and reviewed the allowability
of indirect costs more susceptible to unallowable charges, such as travel, employee
welfare, consultants, and in-house meetings (see table 2). Eight firms had
unallowable costs, some expressly unallowable, included in their indirect rate
claims, representing a significant problem in the millions of dollars.


                             Table 2. Other Unallowable Costs

                                                   Number of              Total                 State DOT
            Indirect Costs                          Firms               Unallowable              Portion
    Entertainment, Alcohol, and
     Employee Morale                                     6                  $355,958                $217,162
    Personal Income Taxes                                1                    355,767                 234,806
    Pensions                                             2                    740,000                 278,400
    Travel-Auto/Lodging/Meals                            3                    435,566                 294,440
    Consultant/Professional Fees                         3                    254,196                  58,507
    Other Unallowable Charges                            5                    101,873                  57,877
    Unsupported Costs                                    5                    449,624                 346,706
    Direct Charges                                       3                    714,082                 236,930
    Subtotal                                                               $3,407,066              $1,724,828
    Costs Claimed Due to Lack
    of Certification                                     1                   1,639,814                 208,256
    Total                                                                  $5,046,880              $1,933,084
    Federal Share Charged to State DOT Contracts                                                   $1,546,467

Examples of unallowable costs identified in table 2:

      • $301,667 for 45 automobile leases—5 of which were luxury class including
        Mercedes, BMW, and Lexus—with no documented business purpose. See
        Exhibit B, number 4 for details.

      • $247,685 for items such as social dinners with clients; dining club
        memberships; outings to professional and college sporting events; theme
9
    We calculated the $30.2 million by subtracting $2.7 million from the $32.9 million (discussed in footnote 8). The
    $2.7 million represents the Federal share (80 percent) of the $3,351,722 unreasonable executive compensation
    ($3,282,096 in table 1) and executive compensation that exceeds the Federal cap ($69,626 in table 1).
                                                                                                                      9


            and holiday parties; and trips to Atlantic City, a city zoo, and a county expo
            fair. See Exhibit B, number 1 for details.

       • $60,000 paid to a consultant based on a verbal agreement. See Exhibit B,
         number 5 for details.

       • $19,956 in travel costs for a project managers’ meeting held at a spa resort
         with no evidence to support costs. See Exhibit B, number 4 for details.

       • $5,153 for non-business-related air travel by a firm’s president and his
         wife. See Exhibit B, number 4 for details.

       • $914 for a 2-night hotel stay not supported by a hotel receipt or business
         purpose. See Exhibit B, number 4 for details.

Exhibit B gives complete details of our findings of other unallowable costs
included in table 2.


Lack of Accountability Contributed to Significant Unallowable Costs Being
Claimed
Federal Government contractors are required to certify 10 that no known
unallowable costs have been charged to the Government, and can be assessed
monetary penalties if they falsely certify or include known unallowable costs in an
indirect cost rate claim. To the contrary, neither FHWA nor any states have such
requirements on state DOT contracts. Consequently D&E firms have less
incentive to ensure that these costs are removed from their state DOT indirect cost
rate claims. Including similar sanctions in state DOT contracts would place the
burden on D&E firms to remove unallowable costs, rather than state governments.
This would hold D&E firms accountable and help ensure tax dollars are not
wasted.

Given the billions of dollars in Federal-aid funds spent annually, it is essential that
D&E firms are held accountable so as to mitigate the Government’s risk. For
example, when a D&E firm was required to prepare both Federal and state DOT
claims using the same cost principles in FAR, Part 31, the indirect costs claimed as
“allowable” should have been identical. The firm was required to certify that the
Federal claim contained no known unallowable costs, and it identified and
removed $1.6 million in unallowable costs that also should have been excluded
from its state DOT claim, but were not. Had the firm been required to certify the
allowability of costs, and been subject to penalties on its state DOT contracts, the

10
     FAR 42.703-2, titled “Certificate of Indirect Costs,” implements 10 United States Code 2324(h) and 41 United States
     Code 256(h).
                                                                                   10


D&E firm may have more tightly scrutinized its state DOT indirect cost rate claim.
FHWA must direct state DOTs to require D&E firms to certify that all indirect
costs are allowable, and authorize states to assess penalties when contractors
knowingly claim unallowable costs. In our opinion, implementing such
requirements would reduce the risk of unallowable costs being billed to state DOT
contracts.


CPA Audits Did Not Consistently Identify Unallowable Executive
Compensation and Other Unallowable Costs
NHSDA requires that cost principles contained in FAR be used when performing
indirect cost rate audits of D&E firms. These principles provide criteria for
determining the allowability of costs for reimbursement on Government contracts.
Generally, states allow D&E firms to engage CPA firms to perform indirect cost
rate audits. While CPA firms attest that they use the cost principles contained in
FAR, state DOT auditors have raised concerns about the quality of such audits.
Specifically, auditors from nine states provided unsolicited comments during our
audit that they saw little value in the work these CPA firms performed. For
example, one state audit office remarked that CPA firms not well versed in FAR
cost principles may exclude from review accounts that have a high inherent risk—
accounts subject to material unallowable costs. They went on to say that, in many
cases, these accounts are not adequately tested by CPA firms and, ultimately,
unallowable costs remain in indirect cost rate claims. Another state audit office
believed that CPA audits are not reliable and, in most instances, CPAs relied too
heavily on internal controls and severely limited their testing of questionable costs.

We also assessed the adequacy of work performed by nine CPA firms and found
similar problems with their audits. For example, one firm’s transaction tests were
limited to those transactions that the D&E firm voluntarily removed as
unallowable costs from its indirect rate. The CPA firm did this limited testing to
determine if the Government could have been billed for more. They did not assess
other costs for their allowability to determine if the Government had been over
billed. Without sufficient transaction testing, there is no assurance that excessive
contractor indirect costs are not priced into, or reimbursed on, Government
contracts. In this case, we identified more than $950,000 in unallowable costs
missed by the CPA firm. These costs included a political contribution, alcohol,
and spa resort charges.

CPA firms are responsible for testing the work that the D&E firms have
performed. Improving the quality of these audits also would reduce the risk of
errors going undetected. For instance, at one D&E firm in our sample, two CPA
firms conducted annual indirect cost rate audits and neither detected double billing
of corporate office costs throughout a 6-year period, totaling $33 million ($24.8
                                                                                11


million of which was included in indirect rates). Reconciling the firm’s indirect
rate claims to the underlying accounting records—a basic and mandatory audit
step performed by DCAA—could have found this double billing.


Factors Contributing to CPA Firms Not Identifying Unallowable Costs in
Indirect Rate Claims
The following factors contributed to the weaknesses we identified in the audit
work performed by CPA firms:

Audit services are not being effectively acquired. Since D&E firms are not
required to certify the accuracy of their indirect rate claims, they have less
incentive to hire CPA firms who are adequately trained and experienced to
perform indirect cost audits. Rather than hire firms qualified to perform such
audits, D&E firms tended to hire CPA firms with whom they had existing
relationships—performing financial statement audits or preparing corporate tax
returns. Additionally, a D&E firm representative stated that it hired CPAs based
on low price. Although cost is a legitimate factor, D&E firms should hire
qualified CPAs with training and expertise relevant to the audit subject area.

While D&E firm representatives said they were unaware of any guidance on how
to select CPA firms, resources are available. One example is the May 1988
handbook “How to Avoid a Substandard Audit: Suggestions for Procuring an
Audit” developed by the National Intergovernmental Audit Forum. 11

CPA firms did not have relevant training to perform effective audits. CPA
audits were affected by their staffs’ lack of relevant training. Our review of nine
CPA audit teams found that six did not have training related to FAR, Part 31, cost
principles. CPA staffs, similar to Federal auditors, are required to have adequate
technical knowledge to perform the engagements they accept. Professional
auditing standards require that audit organizations ensure staff members
collectively possess the necessary technical knowledge, skills, and experience
before beginning work on an assignment. The lack of training in FAR cost
principles contributed significantly to the CPA firms’ inability to adequately
perform such audits.

Oversight of CPA audits was not effective. Neither FHWA nor state DOTs
consistently oversaw the work of CPA firms hired by D&E firms to ensure it was
performed properly. FHWA representatives said they delegated oversight
responsibility to the states; however, FHWA did not clearly communicate such


11
     The handbook is available on GAO’s website: www.gao.gov/govaud/niaf.pdf.
                                                                                  12


expectations so that states knew what was expected and which D&E firms they
were responsible for overseeing. Discussions with state DOT representatives
indicated that the level of oversight they provided depended on the significance of
Federal-aid funding awarded to a D&E firm within their state. To align oversight
responsibility with state DOTs’ financial interests, FHWA should adopt the
Federal Government’s best practice of assigning oversight responsibility to the
agency that has the largest financial interest with a contractor.

Furthermore, according to the Policy on the Stewardship and Oversight of the
Federal Highways Program, dated June 22, 2001, FHWA has oversight
responsibilities for all of its programs. FHWA did not establish a tracking system
or collect sufficient information to evaluate the implementation of Section 307
requirements. For example, FHWA was unable to say which D&E firms were
awarded contracts with Federal-aid funds, how many D&E firm audits were
performed, which states had responsibility for overseeing the audit work
performed by D&E firms, and which D&E firms required an audit. The
combination of poorly audited indirect cost rates and inadequate oversight has
enabled D&E firms to claim millions in unallowable costs on Federal-aid highway
grants. This is evidenced by the $15.7 million (the Federal share charged to state
DOT contracts is $4.4 million) in unallowable costs identified in our audit work.
FHWA needs to improve its oversight of Section 307 implementation and assign
responsibility to specific states for ensuring that D&E firms’ indirect cost rates do
not contain FAR unallowable costs.


RECOMMENDATIONS
We recommend that FHWA:

1. Revise the CFR to:

   a. Require D&E firms to certify that all indirect costs claimed on Federal-aid
      contracts are allowable.

   b. Provide state DOTs authority to assess penalties when contractors
      knowingly claim expressly unallowable costs.

   c. Assign specific responsibility and accountability for overseeing audit work
      performed by CPA firms hired by D&E firms.

2. Issue guidance that can be used to effectively procure audit services for
   indirect cost rate audits. The guidance should include recommendations to:

   a. Use competition when soliciting for qualified CPA firms.
                                                                               13


   b. Evaluate competitors using specific technical factors such as the CPA
      firm’s past experience, technical approach, and staff qualifications.

   c. Require continuing education specific to FAR cost principles for auditors
      performing indirect cost rate audits.

3. Recover the unallowable executive compensation costs and other unallowable
   expenses identified in this audit—$2.8 million in unallowable executive
   compensation and $1.6 million in other unallowable indirect charges.

4. Establish a process for monitoring and ensuring that state DOTs implement
   Section 307.


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
A draft of this report was provided to FHWA for comment on October 29, 2008.
We received their response on January 14, 2009, and they clarified certain
comments in a January 16, 2009, electronic mail. FHWA’s January 14, 2009,
response can be found in its entirety in the appendix. FHWA fully concurred with
three of our four recommendations, and partially concurred with the remaining
one. Agency comments to our recommendations are summarized below:

Recommendation 1: FHWA partially concurred and stated it would take or has
initiated the following actions:

   • Initiate the process to develop revisions to the consultant services
     provisions contained in 23 CFR 172 by August 31, 2009, to require that
     firms certify the allowability of costs used to establish indirect cost rates
     claimed on Federal-aid supported contracts. FHWA expects to issue the
     notice of proposed rulemaking by April 30, 2010. (1.a)

   • Pursue the issue of assessing penalties as part of the reauthorization of its
     highway program. FHWA stated that it could not provide a target
     completion date due to uncertainties concerning the new Administration’s
     reauthorization process for the next surface transportation bill, including
     when this process would be initiated. FHWA also stated it does not
     currently have the regulatory authority to require States to assess penalties
     for the billing of unallowable costs. Until FHWA can pursue the issue, it
     will continue to follow suspension and debarment regulations to deal with
     firms who are in violation of the FAR. We request that FHWA provide a
     target completion date for this recommendation. (1.b).
                                                                                                      14


       • Work with AASHTO, the American Council of Engineering Companies
         (ACEC), and others to revise the AASHTO Uniform Audit & Accounting
         Guide. This effort will also focus on increasing the clarity in the roles and
         responsibilities associated with cognizance in establishing indirect cost
         rates. FHWA plans to use this collaborative effort to identify any
         additional changes that may be needed to 23 CFR 172, and expects the
         revised guide to be published by May 30, 2010.12 (1.c)

Recommendation 2: FHWA concurred and stated that it will modify its technical
guidance and provide best practices to incorporate the recommendation for
acquiring CPA services, and post the revisions on its website by April 30, 2009.

Recommendation 3: FHWA concurred and stated that it would initiate action by
March 31, 2009, to recover $4.4 million in unallowable costs identified in this
audit and expects to complete this action by March 31, 2010.

Recommendation 4: FHWA concurred and stated it would take or has initiated
the following actions:

            • Work with the American Association of State Highway Transportation
              Officials (AASHTO), state DOTs, and industry to address cognizance
              via an update to the AASHTO Uniform Audit & Accounting Guide.
              Additionally, FHWA will clarify the roles and responsibilities with
              cognizance in their rulemaking process. FHWA expects the revised
              guide to be published by May 30, 2010. 12

            • Initiate oversight measures to monitor, evaluate, and report on the use of
              consultant services through a revision to the FY 2009 Single Audit
              Compliance Supplement (Office of Management Budget Circular
              (OMB) A-133). FHWA anticipates these provisions to be posted to the
              OMB website by April 2009.


ACTIONS REQUIRED
FHWA’s planned actions satisfy the intent of our recommendations, subject to
follow-up provisions in DOT Order 8000.1C. For recommendation 1b, please
provide us with a target completion date as to when FHWA will submit a draft of
proposed legislative language to Congress as part of reauthorization within 60
days from the date of this report in accordance with DOT Order 8000.1C. We
appreciate the courtesies and cooperation of FHWA representatives during this


12
     In a January 16, 2009, electronic mail from FHWA’s Associate Administrator for Infrastructure.
                                                                             15


audit. If you have any questions concerning this report, please call me at (202)
366-5225 or Ken Prather, Program Director, at (202) 366-2985.

                                       #

cc: Acting Chief Financial Officer, FHWA
    Director, Office of Program Administration, FHWA
    Associate Administrator for Infrastructure, FHWA
    Martin Gertel, M-1
    Cynthia Thornton, HAIM-13
                                                                                16




EXHIBIT A. SCOPE AND METHODOLOGY
We conducted this audit between November 2004 and October 2008 in accordance
with generally accepted government auditing standards. (The audit completion
was delayed due to competing priorities.) Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence that provides a
reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.

We reviewed FY 2003 costs—the most current data available at the start of the
audit. To assess the risk of state DOTs overpaying indirect costs on state
contracts, we reviewed the allowability of executive compensation and other
indirect costs such as consulting, membership and professional organizations, and
employee benefits. We used the cost principles specified in FAR, Part 31, as
criteria to test the allowability of indirect costs claimed by D&E firms. To assess
the allowability of executive compensation, we also used market surveys and the
Federal statutory cap as criteria. We reviewed pertinent laws and regulations, and
guidance from AASHTO. In addressing our objectives, we performed the
following steps:

 • Contacted all state DOTs to obtain information regarding the audit provisions
   under Section 307 of NHSDA for contracting with D&E firms and their
   methods for implementing those provisions.
 • Used contract payment data received from state DOTs to develop a universe of
   3,580 D&E firms that had active contracts with state DOTs.
 • Selected a stratified random sample of 49 of the 3,580 firm universe for
   detailed testing of executive compensation. The universe was divided into 13
   groups (stratum) based on amounts paid to each D&E firm by state DOTs. A
   random sample was then taken from each stratum and combined to develop the
   total sample of 49 firms. Determined that 8 of the 49 D&E firms either were a
   division of another sampled firm (4), or were not a D&E firm (4). We did not
   test executive compensation at these 8 firms and assigned $0 unallowable
   executive compensation costs to them for purposes of projecting unallowable
   executive compensation to the universe. Accordingly, we refer to the
   remaining 41 firms reviewed throughout the report.
   Projected the results of the sample across the universe of 3,580 firms. Twelve
   of the 13 strata had unallowable executive compensation; 1 strata had no
   unallowable executive compensation. To project the results, we: (1) calculated
   the total unallowable executive compensation amount for each firm; (2)
   calculated the average for each stratum by summing the total for each firm and


Exhibit A. Scope and Methodology
                                                                                17


  dividing by the number of firms in the stratum; (3) weighted each stratum
  average by its proportion of payments in the universe; (4) added the weighted
  averages of all 13 strata; and (5) calculated the mid-point estimate of
  unallowable executive compensation for the universe by multiplying the
  weighted average by the number of firms in the universe (3,580). These
  calculations were done using William G. Cochran’s widely accepted formulas
  published in Sampling Techniques, 3rd edition, pp. 90, 91, and 95, John Wiley
  & Sons, 1977.
  The base for projection of the $41.2 million includes $3,282,096 of
  unreasonable executive compensation found at the 20 firms and $69,626 of
  executive compensation that exceeds the Federal cap identified in table 1. We
  then added $7,526 of unreasonable executive compensation that we identified
  at three D&E firms and deemed as immaterial for cost-recovery purposes to
  arrive at a total of $3,359,248 in unreasonable executive compensation at 23
  firms. To account for ceilings imposed by state DOTs, we judgmentally
  applied a 10 percent reduction ($335,925) to the total unallowable executive
  compensation of $3,359,248. The result is a base for projecting unallowable
  executive compensation of $3,023,323.
  To summarize, the stratified random sample of 49 out of 3,580 D&E firms
  included 23 D&E firms that charged state DOT contracts $3,023,323 in
  excessive executive compensation. Projecting these audit findings, we
  estimate that the 3,580 D&E firms charged $41,170,410. We are 95 percent
  confident that the actual excessive executive compensation charged by D&E
  firms is between $9,387,149 and $72,953,670. In other words, the chances are
  9.5 out of 10 that if we reviewed all 3,580 firms’ indirect cost rate claims, the
  excessive executive compensation charged to state DOT contracts would be
  between $9,387,149 and $72,953,670. These projections are applicable solely
  to the period of our review.

  We did not project the “other” unallowable executive compensation costs of
  $172,626 (see table 1) because we believe the circumstances of the
  unallowable costs were unique to those firms.
 • Judgmentally selected 9 firms from our 41-firm sample and made field visits to
   analyze their books and records to determine if judgmentally selected indirect
   account transactions were allowable and/or reasonable per FAR, Part 31. We
   also met with their outside auditors to discuss and review their audit work.
   The “other unallowable costs” (see table 2) were not projected because the
   sample firms were judgmentally selected.
 • Contacted all sampled firms for various accounting data.
 • Obtained DCAA’s services to perform audits of executive compensation for 21
   firms in our sample. OIG staff audited the remaining 20.


Exhibit A. Scope and Methodology
                                                                              18


 • Summarized and provided each of the 41 firms with preliminary results of the
   executive compensation and unallowable cost testing performed by DCAA and
   the OIG. Received responses from 18 firms. Analyzed those responses and
   developed, in conjunction with DCAA, our final position on the allowability of
   indirect costs and executive compensation. We then offered the D&E firms an
   opportunity to comment on our final position and considered additional
   information provided. During this process, we held meetings, had telephone
   discussions, and/or sent electronic mail to the D&E firms. Issues unresolved
   between auditors and the firms will be resolved by FHWA and state DOT
   officials during the cost-recovery process, see recommendation number 3.

 • Held meetings and discussions with the following throughout the audit
   regarding problems cited in this report:

        o   ACEC
        o   American Road & Transportation Builders Association
        o   Design Professionals Coalition
        o   AASHTO
        o   FHWA Administrator and other FHWA representatives
        o   State DOT auditors
        o   D&E firm representatives




Exhibit A. Scope and Methodology
                                                                                 19




EXHIBIT B. DETAILS OF UNALLOWABLE COSTS
In our review of the nine firms’ indirect claims, using FAR, Part 31 as criteria, we
identified $5,046,880 of unallowable and/or unreasonable costs detailed as
follows:

1. Entertainment, Alcohol, and Employee Morale ($355,958)
   According to FAR 31.205-14, costs incurred in connection with social
   activities, amusements, and any directly associated costs, for example, meals or
   tickets to shows or sporting events, are unallowable. Six firms had
   unallowable charges totaling $247,685 for items such as social dinners with
   clients, company-sponsored employee social events, and dining club
   memberships. The social events included outings to professional and college
   sporting events; company picnics; theme and holiday parties; and trips to
   Atlantic City, a city zoo, and a county expo fair. Two firms claimed costs for
   meals and social events that included alcohol charges, which are expressly
   unallowable under FAR 31.205-51.

   Three firms incurred $108,273 for unallowable employee morale items that
   included:

       • $8,273 for employee Christmas gifts and gift certificates. FAR 31.205-
         13(b) states that the cost of gifts is unallowable.

       • $100,000 for beverages provided to employees, daily, at no charge;
         these costs are unallowable because the firm did not attempt to recover
         costs. FAR 31.205-13(d) states that losses from operating food services
         are allowable only if the firm’s objective is to operate such services on a
         break-even basis.

2. Personal Income Taxes ($355,767)
   One firm charged its partners’ personal income taxes in the amount of
   $355,767. The U.S. Court of Appeals for the Federal Circuit ruled that taxes
   that are not an expense of the business are unallowable on Government
   contracts. The Court cited FAR 31.205-41(a)(1) as the basis for its decision.

3. Pensions ($740,000)
   According to FAR 31.205-6(j)(4)(i), allowable pension costs are limited to the
   net contribution required to be made for a cost accounting period. One firm
   claimed a $600,000 discretionary profit-sharing contribution made to a pension
   fund. Because the $600,000 contribution was discretionary (voluntary), it was
   not required and is therefore unallowable.



Exhibit B. Details of Unallowable Costs
                                                                                20


   FAR 31.205-6(a)(6)(iii) states that compensation for owners of closely held
   companies in excess of costs that are deductible under the Internal Revenue
   Code and regulations are unallowable. One firm charged $140,000 of pension
   expenses that were not deductible under the Internal Revenue Code.

4. Travel-Auto/Lodging/Meals ($435,566)
   FAR 31.205-46 allows only travel costs incurred for company business and
   sets additional limits on certain types of costs. We identified three firms that
   included the following unallowable travel expenses:

      • Automobile lease payments of $301,667 for 45 vehicles (several of
        which were luxury class, i.e., Mercedes, BMW, Audi, and Lexus)
        without documented business purposes. FAR 31.205-46(d) allows for
        reasonable automobile-use costs for company business. It also states the
        cost of automobiles that relates to personal use by employees (including
        transportation to and from work) is compensation for personal services
        and is unallowable. Without proper documentation, cost allowability
        cannot be verified. FAR 31.201-2(d) states that firms are responsible
        for maintaining records that adequately demonstrate that the subject
        costs comply with applicable FAR cost principles.

      • Lodging costs at one firm of $65,629 that were not sufficiently
        documented to determine whether they were incurred for company
        business. FAR 31.205-46(a)(1) states costs incurred by contractor
        personnel on official company business are allowable. Furthermore,
        FAR 31.205-46(a)(7) states travel costs are allowable only if the
        following information is documented: (1) date and place of the
        expenses, (2) purpose of the trip, and (3) name of the person on the trip
        and their title or relationship to the firm. Examples of these expenses
        included:

             − $5,250, total, for quarterly condominium charges and apartment
               rentals. One employee’s apartment charge was supported only
               by a check request, another only by an invoice. No support was
               provided for four employees’ condominium charges, including a
               charge from the Chief Executive Officer of the firm.

             − $19,956 charged for the Laguna Cliff Marriott Resort & Spa for
               what the firm described as a project managers’ meeting. There
               was no evidence to support these costs, such as receipts, list of
               attendees, agenda for the meeting, dates, time, etc.




Exhibit B. Details of Unallowable Costs
                                                                                 21


             − $6,999 charged for a 3-day technology operations managers’
               meeting at a resort, supported by the firm’s spreadsheet
               containing a list of employees to be invited. There were no
               receipts for lodging or lunch, and no meeting agenda to
               determine if the meeting took place, or if it was for official
               company business.

             − $2,646 for two trips to London for which no purpose was
               provided.

             − $914 for two night’s hotel expenses ($399 per night) in
               Washington, DC, claimed by the Chief Executive Officer. The
               maximum allowable lodging rate was $150 per night. The
               expense report did not list a business purpose, nor did the receipt
               submitted include the name or address of the hotel.

      • Lodging, meals, and incidental costs totaling $55,737, exceeding
        maximum Federal per diem limits. Under FAR 31.205-46(a)(2), per
        diem costs are allowable only to the extent that they do not exceed, on a
        daily basis, the maximum per diem rates allowed by the various Federal
        travel regulations.

      • Unallowable airfare expenses, including first-class fares, totaling
        $12,533. Of that amount, $5,153 was for non-business-related air travel
        by a firm’s president and his wife. According to FAR 31.205-46(b),
        airfare costs in excess of the lowest customary standard, coach, or
        equivalent airfare offered during normal business hours are unallowable.

5. Consultant/Professional Fees ($254,196)
   FAR 31.205-33(f) allows fees for consultant services only when supported by
   evidence of the nature and scope of the service furnished. Such evidence
   includes details of service agreements, i.e., cost, services performed, etc., and
   consultants’ work products. We found $234,196 of costs claimed not to be
   adequately supported. The majority of these expenses were not supported by
   evidence of services performed, i.e., work products. For example, one firm
   paid a consultant $5,000 a month ($60,000) with no written agreement. When
   asked for a copy of the consultant’s agreement, the firm said the agreement
   was verbal. In another example, a firm had a written agreement, but the
   services to be performed were not clearly described. We also identified
   $20,000 in professional fees related to a company acquisition, which are
   expressly unallowable under FAR 31.205-27.




Exhibit B. Details of Unallowable Costs
                                                                               22



6. Other Unallowable Charges ($101,873)
   At five firms, we identified unallowable charges totaling $101,873, such as a
   political dinner, flowers, fruit, and other miscellaneous expenses. Items found
   of particular interest were:

      • $35,352 charged by two firms for image-enhancing items such as golf
        shirts with the company logo imprinted on them and photos of projects
        for the company website. FAR 31.205-1(f)(1) disallows public relations
        and advertising costs whose primary purpose is company image
        enhancement. In addition, three firms claimed sponsorship costs of
        $40,150 at various conferences. One firm stated its sponsorships were
        for conferences “more social in nature and did not involve the
        dissemination of technical information.” FAR 31.205-1(f)(3) disallows
        sponsorships for meetings, conventions, symposia, seminars, and other
        special events when the primary purpose of the event is other than
        dissemination of technical information or stimulation of production.

      • Charges by one firm of $8,532 for six bronze statues presented as
        achievement awards. The supporting documentation showed that the
        statues were $1,422 each, and each recipient also received a $10,000
        cash award. According to FAR 31.201-3, a cost is reasonable if, in its
        nature and amount, it does not exceed that which would be incurred by a
        prudent person in the conduct of competitive business. FAR also states
        that the burden of proof is on the contractor to show that a cost is
        reasonable.

      • Donation of furniture valued at $3,500. FAR 31.205-8 disallows
        contributions or donations, including cash, property, and services,
        regardless of recipient.

7. Unsupported Costs ($449,624)
   We identified $449,624 of unsupported costs charged by five firms. Per FAR
   31.201-2(d), firms are responsible for maintaining records, including
   supporting documentation, that adequately demonstrate that the subject costs
   comply with applicable FAR cost principles. We questioned one firm’s entire
   “Inter-Office Business Meetings” account totaling $396,199 because it
   contained numerous costs that were inadequately supported. The costs
   included charges for personal lunches, dining club meals, cigarettes, alcohol,
   first class airfare, and spa resort charges. The supporting documentation
   provided for this account included vague expense reports, summary receipts
   (no line-item detail), and little or no meeting notes, agendas, or lists of
   attendees. The $53,425 questioned at other firms was for undocumented


Exhibit B. Details of Unallowable Costs
                                                                                23


   business meetings and/or meals and other unsupported miscellaneous
   expenses.

8. Direct Charges ($714,082)
   Three firms charged $714,082 of legal, labor, and copy center costs incurred
   for direct contracts to indirect pools. FAR 31.202(a) requires that direct costs
   be charged only to that contract.

9. Costs Not Claimed Due to Certification ($1,639,814)
   When required to certify its Federal Government indirect rate claim, one firm
   removed $1.6 million more in unallowable costs, detailed below, than they
   removed from the same FY claim submitted to state DOTs, using the same
   FAR regulations:

            Indirect Costs                                  Amount
            Entertainment                                   $274,863
            Travel-Airfare, Lodging, Per Diem, Meals         955,127
            Professional Fees                                216,823
            Dues, Memberships, Other                         193,001
            Total                                          $1,639,814




Exhibit B. Details of Unallowable Costs
                                                            24




EXHIBIT C. MAJOR CONTRIBUTORS TO THIS REPORT


  Name                                 Title

   Kenneth Prather                     Program Director

   Terrence Letko                      Program Director

   Dana Short                          Project Manager

   Robert Anderson                     Senior Auditor

   Aisha Evans                         Senior Auditor

   Thomas Wiener                       Senior Analyst

   Allison Horkan                      Auditor

   Edith Makoge                        Management Analyst

   Leslie Mitchell                     Auditor

   Jelilat Ojodu                       Auditor

   Jill Cottonaro                      Management Analyst

   Petra Swartzlander                  Statistician

  Jean Diaz                            Writer/Editor




Exhibit C. Major Contributors to This Report
                                                                                              25

APPENDIX. AGENCY COMMENTS


                                                Memorandum

Subject:   INFORMATION: Federal Highway Administration (FHWA)
            Response to Office of Inspector General (OIG) Draft Report,       Date:   January 14, 2009
            “FHWA Must Improve Oversight of Design and Engineering
            Firms’ Indirect Costs Claimed on Federal-aid Grants”

From:      Thomas J. Madison, Jr.
                                                                              Reply to
            Administrator
                                                                              Attn. of:   HIF/HAIM
To:        Calvin L. Scovel III
           Inspector General (JA-40)

           Thank you for the opportunity to review and comment on the OIG Draft Report,
           “FHWA Must Improve Oversight of Design and Engineering Firms’ Indirect
           Costs Claimed on Federal-aid Grants.” In general, we concur with the
           recommendations contained in the document, except as specifically noted below.
           The FHWA is committed to improving the overall stewardship and oversight of
           the procurement, management, and administration of engineering consultant
           service contracts.

           The report projects an annual potential for cost savings ranging from $9.3 million
           to $72.9 million. The FHWA agrees with the underlying need to make the
           necessary program management changes to eliminate unallowable costs. Our
           strategy for making these improvements, including implementation of your
           recommendations, is to collaborate with the American Association of State
           Highway and Transportation Officials (AASHTO), the American Council of
           Engineering Companies (ACEC), the American Road and Transportation Builders
           Association (ARTBA), the Certified Public Accountant (CPA) community, and
           others, as appropriate, to achieve compliance with applicable Federal
           requirements. Following are our comments and planned actions on the specific
           audit report recommendations.




Appendix.          Agency Comments
                                                                                        26



Recommendation #1: Revise the Code of Federal Regulations (CFR) {23 CFR
172} to:

   a. Require Design and Engineering (D&E) firms to certify that all indirect costs
      claimed on Federal-aid contracts are allowable.
   b. Provide State departments of transportation (DOT) authority to assess penalties
      when contractors knowingly claim expressly unallowable costs.
   c. Assign specific responsibility and accountability for overseeing audit work
      performed by CPA firms hired by D&E firms.

Response: We concur in part. The FHWA recognizes the need for strengthening
our existing regulations as well as increasing oversight and training relating to the
procurement of engineering consultant service contracts that use Federal-aid
funds.

We will initiate the process to develop the revisions to the consultant services
provisions contained in 23 CFR 172 by August 31, 2009, to integrate and address
these issues, including that firms certify the allowability of costs used to establish
indirect cost rates claimed on Federal-aid supported contracts. The notice of
proposed rulemaking is expected to be issued by April 30, 2010, at which time we
will pursue final rulemaking upon completion of the public comment period and
the resolution of comments received. This process will also reflect the applicable
changes to 23 United States Code (U.S.C.) 112(b)(2) made by Section 174 of the
Transportation, Treasury, Housing and Urban Development, the Judiciary, the
District of Columbia, and Independent Agencies Appropriations Act, 2006 (119
Statute 2396; Public Law 109-115), which occurred following other changes to the
statute made by Section 307 of the National Highway System (NHS) Designation
Act of 1995 and the Transportation Equity Act for the 21st Century.

The FHWA lacks the authority to effectively require through regulation that the
States assess civil penalties for a consultant’s known billing of unallowable costs.
The assessment of civil penalties associated with State-awarded contracts is
subject to State law.

We believe that the requirement of a State to assess civil penalties associated with
unallowable costs is better pursued through statute as part of reauthorization of the
highway program. In the interim, FHWA will continue to rely on the suspension
and debarment regulations (49 CFR 29) to address consulting firms that willfully
violate the Federal Acquisition Regulations (FAR) cost principles as a matter of
contractor responsibility.

The FHWA is working closely with AASHTO, ACEC, ARTBA, the CPA
community, and others to revise the AASHTO Uniform Audit & Accounting Guide.


Appendix.      Agency Comments
                                                                                     27



A key component of this effort includes the development of a robust CPA Work
Paper Review Program, designed to give State DOTs a tool to ensure increased
consistency in the quality of CPA-performed audits of consultant indirect cost
rates. In addition, the audit guide revision effort is focusing on increased clarity in
the roles and responsibilities associated with cognizance in establishing indirect
cost rates. The work paper review program, coupled with increased guidance on
cognizance, will serve to improve the quality and consistency in results from CPA
audits of indirect cost rates. We plan to use this collaborative effort to identify any
additional changes that may be needed to 23 CFR 172. As discussed in more
detail below, the audit guide revision process is well under way, with adoption and
publication expected by the spring of 2010.

Recommendation #2: Issue guidance that can be used to effectively procure
audit services for indirect cost rate audits. The guidance should include
recommendations to:

   a. Use competition when soliciting for qualified CPA firms.
   b. Evaluate competitors using specific technical factors such as the CPA firm’s past
      experience, technical approach, and staff qualifications.
   c. Require continuing education specific to FAR cost principles for auditors
      performing indirect cost rate audits.

Response: We concur. We recognize the need for improved CPA audit quality,
and agree that CPA experience, training, and other qualifications are key to
achievement of this objective. As the FHWA does not have a vehicle, short of
Federal legislation, for mandating a CPA firm procurement regime for either
States or engineering firms, our focus is on effecting improved guidance through
revisions to the AASHTO Uniform Audit & Accounting Guide. However, FHWA
will modify our technical guidance and provide best practices on the
administration of engineering and design-related services contracts to incorporate
the OIG recommendations for acquiring CPA services. These revisions will be
completed and posted on FHWA’s website by April 30, 2009.

As stated in response to Recommendation #1, this collaborative effort to revise the
audit guide involves AASHTO and industry. A center piece of this effort is the
development of a robust CPA Work Paper Review Program aimed at giving States
and engineering firms a tool to evaluate the quality of CPA audits, as well as the
underlying qualifications and training of CPA audit staff, including their
knowledge of the FAR cost principles. The revised audit guide will also include
clarification on cognizance, specific requirements concerning governmental audit
standards applicable to Federal-aid funded engineering contract related
engagements, discussions on common interpretations of the FAR cost principles,
detailed guidance on risk and materiality, and other relevant aspects of this


Appendix.      Agency Comments
                                                                                   28



program area, all of which will serve to improve the quality of all audits of indirect
costs, including those performed by CPA firms.

The FHWA will incorporate, to the extent applicable, all relevant components of
this guide into its proposed rulemaking process to ensure achievement of intended
results. This collective effort will include any necessary guidance, training, and
related activities to ensure Federal, State and local governments, as well as
industry, understand and correctly apply resultant regulations and guidance. This
process has been under way since September 2007, with the draft guide expected
to be submitted in the summer of 2009 to AASHTO, with adoption and
publication expected by the spring of 2010.

Recommendation #3: Recover the unallowable executive compensation costs
and other unallowable expenses identified in this audit—$2.8 million in
unallowable executive compensation and $1.6 million in other unallowable
indirect charges.

Response: We concur. However, as the amounts cited in the report for
unallowable executive compensation and other unallowable indirect charges are
estimates, FHWA will have to first validate the questioned costs by firm and by
State. This comprehensive effort will require a determination of amounts paid for
with State funds versus those reimbursed with Federal funds.

Additionally, the various Federal program codes used must be identified, along
with the relative pro rata shares involved in making payment with FHWA funds.
The FHWA will initiate cost recovery efforts, through State DOTs and industry by
March 31, 2009, with completion expected by March 31, 2010.

Recommendation #4: Establish a process for monitoring and ensuring that State
DOTs implement Section 307.

Response: We concur. We note that Section 307 amended 23 U.S.C. 112(b)(2),
which has subsequently been amended twice since the enactment of Section 307 of
the NHS Designation Act of 1995 (Public Law 104-59). As noted above, FHWA,
working with AASHTO, State DOTs and industry, will continue efforts to address
cognizance via the existing AASHTO Uniform Audit & Accounting Guide update
process. We will also clarify the roles and responsibilities with cognizance in our
rulemaking process.

Additionally, FHWA recognizes the need to monitor, evaluate, and report on the
use of consultant services. The FHWA has initiated oversight measures through a
revision to the Fiscal Year (FY) 2009 Single Audit Compliance Supplement
(Office of Management and Budget (OMB) Circular A-133) by identifying the


Appendix.      Agency Comments
                                                                                29



existing key compliance requirements associated with the consultant procurement
and administration processes. We envision future revisions to the compliance
supplement to incorporate newly revised regulations, as they occur. The FY 2009
OMB Circular adopting these provisions is anticipated to be posted to the OMB
website by April 2009.

In closing, we would like to emphasize that FHWA’s role in this program is to
provide general program stewardship and oversight of State DOTs and local
authorities’ consultant services activities. We do not review or approve individual
consultant service procurements, contracts, or indirect cost rate audit actions.
Rather, through stewardship and oversight, we seek improvements to State DOTs
and local authorities’ consultant services procurements, policies, procedures, and
practices. This is consistent with the direction of FHWA Federal-aid highway
program oversight responsibilities established by Congress in 23 U.S.C. 106.

We look forward to working with our partners and stakeholders to address these
findings. Collectively, we will develop and implement strategies and activities to
improve the performance and quality of consultant services, with the following
key goals:

   • increased CPA audit quality;
   • clarity on roles and responsibilities over cognizance;
   • consistency in FAR cost principle interpretations;
   • compliance with the FAR cost principles; and
   • improvement in the procurement, management, and administration of
       consultant services.

This audit will effect improvements to the overall procurement, project
management, and financial administration of State DOTs and local authorities’
consultant services programs and practices nationally. If you have any questions
or comments regarding this response, please contact Mr. Jon Obenberger at (202)
366-2221 or Mr. David Bruce at (802) 828-4567




Appendix.      Agency Comments
The following pages contain textual versions of the tables found within this
document. These pages were not in the original document but have been added
here to accommodate assistive technology.
                  Oversight of Design and Engineering Firms’
                 Indirect Costs Claimed on Federal-aid Grants

                                    Section 508

Table 1. Unallowable Executive Compensation

The types of unallowable costs that were unreasonable at 20 firms had total
unallowable costs of $9,421,299 and the state DOT portion was $3,282,096.

The types of unallowable costs that exceeded the Federal cap at 4 firms had total
unallowable costs of $280,609 and the state DOT portion was $69,626.

“Other” types of unallowable costs at 2 firms had total unallowable costs of
$961,594 and the state DOT portion was $172,626.

The total unallowable costs were $10,663,502 and the state DOT portion was
$3,524,348.

Note 1 explains the state DOT portion: The $3,524,348 represents the portion of
D&E firms’ indirect costs allocated to state DOT contracts. The remaining
$7,139,154 ($10,663,502 − $3,524,348) represents the portion allocated to D&E
firms’ business, other than state DOTs.

Note 2 explains that we did not total the number of firms because some had
multiple types of unallowable costs. Specifically, the four firms that had executive
compensation exceeding the cap also had unreasonable costs. The two firms that
had other unallowable costs also had unreasonable costs. One firm had all three
types of unallowable costs.

Note 3 explains the Federal share charged to state DOT contracts: The $2,819,478
represents 80 percent of the $3,524,348 state DOT portion of the unallowable
costs. See footnote 5, page 3, for further explanation of the 80 percent.

Table 2. Other Unallowable Costs

For indirect costs for entertainment, alcohol, and employee morale at 6 firms, the
total unallowable costs were $355,958, and the state DOT portion was $217,162.

For indirect costs for personal income taxes at 1 firm, the total unallowable costs
were $355,767, and the state DOT portion was $234,806.

For indirect costs for pensions at 2 firms, the total unallowable costs were
$740,000 and the state DOT portion was $278,400.
For indirect costs for travel-auto/lodging/meals at 3 firms, the total unallowable
costs were $435,566 and the state DOT portion was $294,440.

For indirect costs for consultant/professional fees at 3 firms, the total unallowable
costs were $254,196 and the state DOT portion was $58,507.

For indirect costs for other unallowable charges at 5 firms, the total unallowable
costs were $101,873 and the state DOT portion was $57,877.

For indirect costs for unsupported costs at 5 firms, the total unallowable costs were
$449,624 and the state DOT portion was $346,706.

For indirect costs for direct charges at 3 firms, the total unallowable costs were
$714,082 and the state DOT portion was $236,930.

The subtotal for total unallowable costs was $3,407,066 and the state DOT portion
was $1,724,828.

The costs claimed due to lack of certification at 1 firm were $1,639,814 and the
state DOT portion was $208,256.

The total unallowable was $5,046,880 and the state DOT portion was $1,933,084.

The Federal share charged to state DOT contracts was $1,546,467.

Exhibit B. Details of Unallowable Costs

Indirect costs for entertainment totaled $274,863.

Indirect costs for travel-airfare, lodging, per diem, and meals totaled $955,127.

Indirect costs for professional fees totaled $216,823.

Indirect costs for dues, memberships, and other totaled $193,001.

Total indirect costs were $1,639,814.
